U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 13, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Tarek Obaid v. United States, No. 20-1385
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 31,
2021. The government’s response is now due, after one extension, on June 2, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including July 2, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1385
OBAID, TAREK
USA

DAVID B. RIVKIN JR.
BAKER & HOSTETLER LLP
1050 CONNECTICUT AVENUE, N.W.
SUITE 1100
WASHINGTON, DC 20036
202-861-1731
DRIVKIN@BAKERLAW.COM

